d
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
ALEXANDRIA DIVISION
CIVIL DOCKET NO. l:18-CV-00885

SHANNON DOTSON,

Plaintiff
VERSUS

JUDGE DRELL

TUNICA-BILOXI GAMING
COMMISSION, ETAL.,
Defendants

MAGISTRATE JUDGE PEREZ-MONIES

MEMORANDUM ORDER
On August 22, 2019, Plaintiff Shannon Dotson (‘Dotson”) filed a Motion for
Extension of Time to Serve by Publication (Doc. 63). As a consequence of the ongoing
confusion surrounding Dotson’s request for relief regarding service, the Court
granted the motion in error (Doc. 64).
To the best of the Court’s understanding, Dotson seeks to serve presentlyunidentified individuals by “publication.” It is unclear whether this request is limited
to individuals identified in the Complaint, or may extend to individuals unmentioned
to date. In either event, the Court gathers that these unidentified individuals would
be persons, not corporate entities, and would likely be employees of, or affiliated with,
the principal Defendant, the Tunica-Biloxi Gaming Commission.
Service of process is governed, in relevant part, by Rule 4 of the Federal Rules
of Civil Procedure. No provision of Rule 4 - or any applicable state law referenced in
Rule 4 — would allow Dotson to serve unidentified individuals by “publication.” Of
course, the Court has no concept of whether any unidentified individuals would be

|0

proper parties to the litigation in the first place. But if they were, Dotson would be
required to identify those individuals by name - likely through the discovery process
- and then seek leave to amend to add them to the complaint. At this juncture, absent
identities, Dotson cannot serve any unidentified defendants, by publication or
otherwise. An extension to do so is therefore, clearly, not warranted.
Moreover, Defendants Piazza and Vocarro filed a Motion to Dismiss (Doc. 52),
arguing service upon them was inadequate. Service issues will he addressed in the
Court’s ruling as to that motion as well.
IT IS ORDERED that the Court’s Electronic Order Granting (63) Motion for
Extension (Doc. 64) is hereby RESCINDED and WITHDRAWN.
IT IS FURTHER ORDERED that the Motion for Extension (Doc. 63) is hereby
DENIED.
THUS DONE AND SIGNED in Alexandria, Louisiana, on thiy 27th day of
August 2019.
'ES
UNITED STATES MAGISTRATE JUDGE

&\\

Case l:18-cv-00885-DDD-JPM Document 81-1 Filed 03/26/20 Page 1 of 1 PagelD #: 517

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
ALEXANDRIA DIVISION
SHANNON DOTSON

CASE NO. l:18-CV-00885

VERSUS

JUDGE DRELL

TUNICA-BILOXI GAMING COMMISSION

MAGISTRATE JUDGE PEREZ-MONTES

JUDGMENT
For the reasons expressed in the Report and Recommendations of the Magistrate Judge
filed previously herein and after independent (de novo) review of the entire record in this case,
including the objections filed by plaintiff, the court ADOPTS die proposed findings and it is hereby
ORDERED that defendants’ motions to dismiss (Doc. 51, 52) are GRANTED.
Defendant’s alternative motion for more definite statement (Doc. 51) is DENIED as MOOT.
Accordingly, it is further
ORDERED, ADJUDGED and DECREED that all claims by plaintiff against defendants
Tunica-Biloxi Gaming Commission, Lori Piazza and Vocarro in the instant suit are DENIED AND
DISMISSED with prejudice. It is further
ORDERED that plaintiffs pending motion for issuance of subpoena duces tecum (Doc.
71) is DENIED as MOOT. Similarly, the motion to quash (Doc. 74) filed thereafter by defendant
is DENIED as MOOT.
THUS DONE AND SIGNED this 9 b day of March, 2020 at Alexandria, Louisiana.

DEE b. DRErXrJUDGE
UNITED STATES DISTRICT COURT

Case l:l8-cv-00885-DDD-JPM Document 81 Filed 03/26/20 Page 1 of 1 PagelD #: 494

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
ALEXANDRIA DIVISION
SHANNON DOTSON

CASE NO. l:18-CV-00885

VERSUS

JUDGE DRELL

TUNICA-BILOXI GAMING COMMISSION

MAGISTRATE JUDGE PEREZ-MONTES

JUDGMENT
For the reasons expressed in the Report and Recommendations of the Magistrate Judge
filed previously herein and after independent (de novo) review of the entire record in this case,
including the objections filed by plaintiff, the court ADOPTS the proposed findings and it is hereby
ORDERED that defendants’ motions to dismiss (Doc. 51, 52) are GRANTED.
Defendant’s alternative motion for more definite statement (Doc. 51) is DENIED as MOOT.
Accordingly, it is further
ORDERED, ADJUDGED and DECREED that all claims by plaintiff against defendants
Tunica-Biloxi Gaming Commission, Lori Piazza and Vocarro in the instant suit are DENIED AND
DISMISSED with prejudice. It is further
ORDERED that plaintiff’s pending motion for issuance of subpoena duces tecum (Doc.
71) is DENIED as MOOT. Similarly, die motion to quash (Doc. 74) filed thereafter by defendant
is DENIED as MOOT.
yt_
THUS DONE AND SIGNED this P b ciay of March, 2020 at Alexandria, Louisiana.

DEE D.TFREEL, JUDGE
UNITED STATES DISTRICT COURT

Case l:18-cv-00885-DDD-JPM Document 77 Filed 02/27/20 Page 1 of 8 PagelD #: 462

b

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
ALEXANDRIA DIVISION
SHANNON DOTSON,
Plaintiff

CIVIL DOCKET NO. i:i8-CV-00885

VERSUS

JUDGE DRELL

TUNICA BILOXI GAMING
COMMISSION,
Defendants

MAGISTRATE JUDGE PEREZ-MONTES

REPORT AND RECOMMENDATION
Before the Court are two Motions to Dismiss filed by Defendants, alleging
tribal immunity and failure to effect service of process. ECF Nos. 51, 52. Because
the Tunica-Biloxi Gaming Commission has sovereign immunity, its Motion to
Dismiss should be GRANTED. Because Plaintiff failed to serve process on the other
Defendants, the Motion to Dismiss pursuant to Fed. R. Civ. P. rule 4(m) should be
GRANTED as to all other Defendants.
I.

Background.
Plaintiff Shannon Dotson (“Dotson”) filed a pro se complaint pursuant to 42

U.S.C. § 1983; § 706 of the Civil Rights Act of 1964; 18 U.S.C. § 1964 (civil RICO);
Bivens v. Six Unknown Named Agents of the Federal Bureau ofNarcotics, 403 U.S.
388 (1971); the Federal Tort Claims Act, 28 U.S.C. §§ 2671-2680; and the “eggshell
skull rule.” ECF Nos. 1,11, 40. The named Defendants are the Tunica-Biloxi Gaming
Commission (“Gaming Commission”), Sheila Augustine (“Augustine”), Lori Piazza
(“Piazza”),

Ms.

Vocarro (“Vocarro”),

Ms. Camilla,

Commissioner Newman

Case l:18-cv-00885-DDD-JPM Document 77 Filed 02/27/20 Page 2 of 8 PagelD #: 463

(“Newman”), Commissioner Bobby Pierite (“Pierite”), Catherine Pierite (“Catherine
Pierite”), and Cheryl Barby (“Barby”). i
Dotson alleges Defendants conspired to steal her slot machine jackpot of
$20,500,000. ECF No. 40 at 4. Dotson contends that, when her slot machine stopped,
it showed at the bottom “20 5”. ECF No. 40 at 7. Dotson contends she was entitled
to another free spin, but the machine would not spin, so she hit the service button.
ECF No. 40 at 7. Defendant Piazza arrived, told Dotson she had not won, cashed
Dotson out on the machine, moved the “reel,” and took Dotson’s “ticket.” ECF No. 40
at 7. Piazza’s supervisors, Pierite and Vocarro, then arrived. ECF No. 40 at 7. Pierite
could not find a code “20 5” in the manual and said there was no such code. ECF No.
40 at 7. When they ran a code scan, no code with “20 5” showed up. ECF No. 40 at
7.
Augustine, a Gaming Commission representative, showed Dotson a video of
herself and Piazza. ECF No. 40 at 9. The video showed an error code of 20 5, stating
it was a jammed coin and printer error. ECF No. 40 at 9. Dotson contends she had
not put coins in the machine. ECF No. 40 at 9. The Gaming Commission ruled
against Dotson. ECF No. 40 at 9. Dotson contends Defendants deprived her of a
jackpot worth “20 5,” or (according to Dotson) $20,500,000.2 ECF No. 40 at 7. Dotson
contends Defendants violated gaming regulations and laws, fabricated evidence,
falsified documents “in a federal establishment,” defamed her, lied under oath before

1 Dotson also names an “unnamed supervisor” and an “unnamed manager.” Dotson has never
provided any names.
2 Dotson has not explained why she believes there should be five zeros after “20 5”.

$[-2>

Case l:18-cv-0Q885-DDD-JPM Document 77 Filed 02/27/20 Page 3 of 8 PagelD #: 464

the gaming commissioners, and falsified the error codes in the slot machine. ECF
No. 40 at 15. Dotson alleges claims of theft, defamation, negligence, “tort act,” breach
of contract, misconduct, abuse of discretion, abuse of process, and excessive force
(among others). Dotson asks for treble damages and a jury trial.
The Commission filed a Motion to Dismiss and, Alternatively, Motion for More
Definite Statement. ECF No. 51. The Commission alleges that it has tribal sovereign
immunity.
Piazza and Vocarro filed a Motion to Dismiss for failure to effect service
pursuant to Fed. R. Civ. P. 4(m). ECF No. 52.
II.

Law and Analysis
A.

The framing Commission and its Commissioners (in their official
capacities) have tribal immunity.

The Gaming Commission contends it is a tribal agency and an arm of the
Tunica-Biloxi Indian Tribe (“the Tribe”) and, therefore, has sovereign immunity.
The Tribe is the owner and operator of the Grand Casino Avoyelles. See Gore
v. Grand Casinos ofLouisiana, Inc., 1998 WL 1990523, at *1 (W.D. La. 1998). The
Tribe has been recognized by Congress as a sovereign Indian nation. See Gore, 1998
WL 1990523, at *1 (citing Notice, Final Determination for Federal Acknowledgment
ofthe Tunica-Biloxi Indian Tribe, 46 Fed. Reg. 38411 (July 27, 1981)). It is therefore
immune from suit unless it expressly consents be sued. See Gore, 1998 WL 1990523,
at *1 (citing Oklahoma Tax Commission v. Citizen Band Potawatomi Indian Tribe of
Okla., 498 U.S. 505, 509 (1991)).

<\\\

Case l:18-cv-G0885-DDD-JPM Document 77 Filed 02/27/20 Page 4 of 8 PagelD #: 465

Gaming activities under the IGRA do not constitute an express and
unequivocal waiver of immunity from suit.

See Havekost v. Grand Casinos of

Louisiana, 2000 WL 33909243, at *1 (W.D. La. 2000) (citing Florida v. Seminole Tribe
ofFlorida, 181 F.3d 1237, 1243 (llth Cir. 1999)). Tribal sovereign immunity extends
to tribal enterprises, including gaming. See Havekost, 2000 WL 33909243, at *1
(citing World Touch Gaming, Inc. v. Massena Management L.L.C., 117 F. Supp. 2d
271 (N.D.N.Y. 2000)). Indian tribal courts have exclusive jurisdiction over actions
of non-Indians on reservation lands.

See Havekost, 2000 WL 33909243, at *1

(citing Tamiami Partners, Ltd. v. Miccosukee Tribe ofIndians ofFlorida, 999 F.2d 503
(llth Cir. 1993); Montana v. United States, 450 U.S. 544 (1981)).
Defendants

submitted

an

affidavit

from

Rudolph

(“Wambsgans”), the chairman of the Gaming Commission.

Wambsgans

III

ECF No. 51-2.

Wambsgams states the Gaming Commission is a governmental agency of the Tribe,
and the tribal gaming authority with responsibility for regulating gaming activities
conducted within the jurisdiction of the Tribe. ECF No.51-2 at 2. The Gaming
Commission was established by the Tribe pursuant to tribal law under the Tribe’s
gaming regulations in accordance with the Indian Gaming Regulatory Act (“IGRA”),
25 U.S.C. §§ 2701, et seq. ECF No. 51-2 at 2. Wambsgans shows that § 14(A) of the
Tribal-State Compact between Louisiana and the Tribe states the Tribe “shall not be
deemed to have waived its sovereign immunity from suit with respect to such
disputes.” ECF No. 51-2 at 2.

Case l:18-cv-00885-DDD-JPM Document 77 Filed 02/27/20 Page 5 of 8 PagelD #: 466

As an agency and arm of the Tribe, the Gaming Commission also has sovereign
immunity. See In re Intramta Switched Access Charges Litigation, 158 F. Supp. 3d
571, 575 764 (N.D. Tex. 2015) (collecting cases)/Havekost, 2000 WL 33909243, at *1.
Moreover, Defendants sued in their official capacities as tribal officers may
assert sovereign immunity.

See Lewis v. Clark, 137 S. Ct. 1285, 1291 (2017).

Accordingly, to the extent Dotson’s suit against Commissioner Newman and
Commissioner Bobby Pierite is against them in their official capacities, it should be
dismissed due to sovereign immunity.3
B.

Dotson’s action against. Piazza and Vacarro should be dismissed.

Piazza and Vocarro filed a Motion to Dismiss (ECF NO. 52) for failure to effect
service of process.
Bianca Smith, a private process server, stated in an affidavit that she served
Piazza and Vocarro through Christy J. Smith. ECF No. 58-1. The service returns
show she left the summonses with “Christy J. Smith.” ECF No. 41.
Defendants show, in an affidavit by Christy J. Smith (’’Smith”), that Smith is
the Clerk of Court for the Tunica-Bioloxi Tribal Court. ECF No. 52*2 at 1. In that
capacity, Smith receives documents that are requested to be served through the
Tribal Police, reviews them for sufficiency, and forwards them to the Tribal Police for
service. ECF No. 52-2 at 1. Smith is not an authorized agent for service of process
for any of the Defendants. ECF No. 52-2 at 1. Smith determined that Piazza was no
longer employed at the Casino and could not be served by the Tribal Police, and
3 Dotson did not state whether she was suing the individual defendants in their individual
or official capacities.

Case l:18-cv-00885-DDD-JPM Document 77 Fifed 02/27/20 Page 6 of 8 PagelD #:. 467

returned that summons to Dotson. ECF No. 52-2 at 2. Smith determined that
Vocarro could not be served by the Tribal Police because the summons lacked a first
name, so she returned that summons to Dotson, also. ECF No. 52-2 at 2.
Defendants Piazza and Vocarro were never served. ECF Nos. 35, 41, 42, 52-2.
Although she has made repeated efforts to effect service,4 Dotson has not shown good
cause for failure to do so in accordance with Fed. R. Civ. P. 4(m). Accordingly, the
complaint against Piazza and Vocarro should be dismissed without prejudice for
failure to effect service within 90 days, as required by Fed. R. Civ. P. 4(m). See
McGinnis v. Shalala, 2 F.3d 548, 550 (5th Cir. 1993), cert, den., 510 U.S. 1191 (1994);
Systems Signs Supplies v. U.S. Dept, ofJustice, 903 F.2d 1011, 1013 (5th Cir. 1990);
Kersh v. Derosier, 851 F.2d 1509, 1512 (5th Cir. 1988).

C.

Dotson’s complaint, against Augustine. Camilla- Newman. Bobby
Pierite. Catherine Pierite. and Barbv should also be dismissed for lack
of service of process.

Dotson’s second amended complaint was filed on June 6, 2019. ECF No. 40.
Summonses were issued for Augustine, Camilla, Newman, Bobby Pierite, Catherine
Pierite, and Barby on June 6, 2019. To date, those Defendants have not been served.
Dotson’s complaint against Augustine, Camilla, Newman, Bobby Pierite, Catherine
Pierite, and Barby should be dismissed without prejudice pursuant to Fed. R. Civ. P.
rule 4(m) for failure to effect service within 90 days.

4 Dotson tried to mail the summonses (ECF No. 16), tried to deliver them herself (ECF No.
27), tried to effect service through the United States Attorney and United States Attorney
General (ECF No. 28), and tried to leave the summonses with someone who was not an agent
for service of process (ECF Nos. 35, 41). Also, although summonses were issued (ECF No.
43), there is no evidence of any effort to serve Barby, Newman, or the Pierites.

Case l:18-cv-00885-DDD-JPM Document 77 Filed 02/27/20 Page 7 of 8 PagelD #: 468

m.

Conclusion
Because the Commission, Commissioner Newman in his official capacity, and

Commissioner Pierite in his official capacity have sovereign immunity, IT IS
RECOMMENDED that Defendant’s Motion to Dismiss the action against the Tunica*
Biloxi Gaming Commission (ECF No. 51) be GRANTED and that Dotson’s action
against the Gaming Commission, as well as Commissioner Newman and
Commissioner Pierite in their official capacities, be DENIED AND DISMISSED
WITH PREJUDICE.
Because Dotson failed to effect service within 90 days on any of the individual
Defendants, IT IS RECOMMENDED that Defendants’ Motion to Dismiss the action
against Piazza and Vocarro (ECF No. 52) be GRANTED and that Dotson’s action
against Piazza and Vocarro, as well as Augustine, Camilla, Newman, Bobby Pierite,
Catherine Pierite, and Barby, be DISMISSED WITHOUT PREJUDICE.
Under the provisions of 28 U.S.C. § 636(b)(1)(c) and Fed. R. Civ. P. 72(b),
parties aggrieved by this Report and Recommendation have fourteen (14) calendar
days from service of this Report and Recommendation to file specific, written
objections with the Clerk of Court. A party may respond to another party’s objections
within fourteen (14) days after being served with a copy thereof. No other briefs (such
as supplemental objections, reply briefs, etc.) may be filed. Providing a courtesy copy
of the objection to the undersigned is neither required nor encouraged. Timely
objections will be considered by the District Judge before a final ruling.

Case 1:18-cv-00885-DDD-JPM Document 77 Filed 02/27/20 Page 8 of 8 PagelD #: 469

Failure to file written objections to the proposed findings, conclusions, and
recommendations contained in this Report and Recommendation within fourteen (14)
days from the date of its service, or within the time frame authorized by Fed. R. Civ.
P. 6(b), shall bar an aggrieved party from attacking either the factual findings or the
legal conclusions accepted by the District Judge, except upon grounds of plain error.
THUS ORDERED AND SIGNED in Chambers at Alexandria,
this 26th day of February 2020.
Joseph H.L. Perez-Montes
United States Magistrate Judge

usiana on

Case: 20-30261

Document: 00515618470

Page: 1

Date Filed: 10/28/2020

fHntteb States! Court of Appeals!
for tfje Jftftf) Circuit

United States Court of Appeals
Fifth Circuit

FILED
October 28,2020

No. 20-30261

Lyle W. Cayce
Clerk

Shannon Demond Dotson,
Plaintiff—Appellant,
versus
Tunica-Biloxi Gaming Commission; Sheila Augustine;
Lori Piazza; Ms. Vocarro; Unknown Supervisor,
African; Unknown Manager, 1:30 PM; Ms. Camilla;
Commissioner Newman; Commissioner Bobby Pierite;
Catherine Pierite; Cheryl Barby,
Defendants—Appellees.
Appeal from the United States District Court
for the Western District of Louisiana
USDC No. l:18-CV-885
Before Haynes, Willett, and Ho, Circuit Judges.
Per Curiam:*
Shannon Dotson claims he won a $20,500,000 jackpot while playing
the slot machine at the Paragon Casino Resort. Dotson filed this suit pro se

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

If

Case: 20-30261

Document: 00515618470

Page: 3

Date Filed: 10/28/2020

No. 20-30261

that he asked to speak with a manager; Ms. Vocarro and Bobby Pierite, two
of Piazza’s supervisors, arrived. Dotson claims that Vocarro and Pierite, as
well as other casino employees, said they could not find a “20 5” code in the
slot machine manual and, when they ran a code scan, no code with “20 5”
showed up. Dotson appeared before the Tunica-Biloxi Gaming Board to
present his case, and the Board ruled against him.
Dotson then brought this suit pro se under 42 U.S.C. § 1983, § 706 of
the Civil Rights Act of 1964,18 U.S.C. § 1964 (civil RICO), Bivens, the
Federal Tort Claims Act, and the “eggshell skull rule.” Dotson alleges that
the Gaming Commission, Piazza, Vocarro, and other defendants violated
gaming regulations and laws, fabricated evidence, falsified documents,
defamed him, lied under oath, and falsified error codes in the slot machine.1
The Gaming Commission filed a motion to dismiss under Rule
12(b)(1), asserting tribal sovereign immunity, or, in the alternative, a motion
for a more definite statement. Piazza and Vocarro filed a motion to dismiss
for failure to effect service under Federal Rules of Civil Procedure 4(m),
12(b)(5), and 41(b), as well as under Local Rule 41.3. The magistrate judge
issued a report and recommendation, finding that the Gaming Commission
was an agency and arm of the Tribe and thus entitled to sovereign immunity.
The magistrate judge also found that Dotson had not served Piazza and
Vocarro and had not shown good cause for his failure to serve them under
Rule 4(m). Thus, the magistrate judge recommended that the claim against

1 In addition to naming the Gaming Commission, Piazza, and Vocarro as
defendants, Dotson also sued an unnamed supervisor, Sheila Augustine, Ms. Camilla,
Bobby Pierite, Catherine Pierite, Cheryl Barbry, and Aubery Newman. The magistrate
judge recommended dismissing Dotson’s action against these defendants for lack of
service, but the district court did not specifically mention these defendants in its dismissal.
However, on appeal, Dotson does not claim to have effected service on any of these
defendants.

Case: 20-30261

Document: 0051561!p470

Page: 4

Date Filed: 10/28/2020

1

No. 20-30261
\

the Gjaming Commission be dismissed with prejudice and the claim against
Piazza and Vocarro be dismissed Without prejudice. The district court
adopted the magistrate judge’s R&R and dismissed with prejudice Dotson’s
claims against the Gaming Commission, Piazza, and Vocarro.2 Dotson
appea ed.
III

We review a district court’s j dismissal for lack of subject-matter
jurisdiction de novo. Ramming v. United, States, 281 F.3d 158,161 (5th Cir.
2001). We review a district court’s dismissal for failure to timely effect
service for abuse of discretion. Thrasher v. City ofAmarillo, 709 F.3d 509,511
(5th Cir. 2013).

HI
Dotson raises two issues on appeal. First, he claims that the district
court ejrred in granting the Gaming Commission’s motion to dismiss based
on tribal sovereign immunity. Second, he argues that the district court erred
m granting Piazza and Vocarro’s motion to dismiss under Rules 4(m),
12(b)(5j), and 41(b) and Local Rule 41.3. We address each in turn.
!

A

Tribes possess “common-law immunity from suit,” subject only to
Congrejss’s plenary control. Michigan v. Bay Mills Indian Cmty., 572 U.S. 782,
788 (20jl4) (quoting Santa Clara Pueblo v. Martinez, 436 U.S. 49,58 (1978)).
This ddctrine of tribal sovereign immunity is “settled law.” Id. at 789
(quoting Kiowa Tribe of Okla. v. MJg. Techs., Inc., 523 U.S. 751, 756 (1998)).

2jThc district court also denied as mobt: The Gaming Commission’s alternative
motion for a more definite statement; Dotson’s motion for issuance of subpoena duces
tecum; aijd the Commission’s motion to quashl

Case: 20-30261

Document: 00515618470

Page: 2

Date Filed: 10/28/2020

No. 20-30261

against multiple defendants, including the Tunica-Biloxi Gaming
Commission, Lori Piazza, and Ms. Vocarro, alleging that they stole his
jackpot winnings by fabricating a slot machine error code. The district court
dismissed with prejudice Dotson’s claims against the Gaming Commission,
Piazza, and Vocarro. Dotson appealed, and, for the reasons discussed below,
we affirm.
I
The Tunica-Biloxi Tribe of Louisiana is a federally recognized Indian
tribe. See Indian Entities Recognized and Eligible to Receive Services from
the United States Bureau of Indian Affairs, 81 Fed. Reg. 26,826-02, 26,830
(May 4,2016). The Tribe established the Tunica-Biloxi Gaming Commission
under tribal law and in accordance with the Indian Gaming Regulatory Act
(IGRA). See 25 U.S.C. §§ 2701 etseq. The Gaming Commission regulates
gaming activities within the jurisdiction of the Tribe, including those at the
Tribe-owned Paragon Casino Resort See Tribal-State Compact for the
Conduct of Class HI Gaming Between the Tunica-Biloxi Indian Tribe of
Louisiana and the State of Louisiana, § 8(A); see also 66 Fed. Reg. 51,453-03,
51,453 (Oct. 9,2001). In the Tribal-State Compact between the Tribe and the
State of Louisiana, the Tribe expressly reserved its tribal sovereign immunity
with respect to patrons’ disputes arising from the Paragon Casino’s refusal
to award or pay alleged winnings. See Tribal-State Compact at § 14(A).

Shannon Dotson was a patron at the Paragon Casino Resort. He
alleges that his slot machine stopped and displayed “20 5,” which he claims
entitled him to a $20,500,000 jackpot. Dotson says that he pressed the
machine’s service button to claim his winnings; he further asserts that Lori
Piazza, a Paragon Casino employee, arrived at his slot machine, told him that
he had not won, cashed him out, and then took his ticket. Dotson then avers

Case: 20-30261

Document: 0051561i8470

Page: 5

Date Filed: 10/28/2020

;

No. 20-30261

Accordingly, absent congressional authorization or waiver, a court must
dismiss a suit against a tribe for lack of subject-matter jurisdiction. Id.
Moreover, tribal sovereign immunity shields not only the tribe itself but also
“an arm or instrumentality” of the tribe. Lewis v. Clarke, 137 S. Ct. 1285,
1290(2G17) (citation omitted).
!

1 Applying these principles to jthis case, the Tunica-Biloxi Tribe is
immu|ie from suit, and the Tribe’s immunity extends to the Gaming
Commission, an arm of the Tribe. Plus, Congress has not authorized suit, and
the Tpbe has expressly reserved its immunity from suit in contestedwmnii|gs disputes brought by patrons. Thus, the Gaming Commission is
shielded from suit, and the district court did not err in dismissing the claims
against the Gaming Commission for lajck of subject-matter jurisdiction.
jDotson’s arguments to the contraiy fail. Although Dotson
acknowledges that the Tribe is immunfc from suit, he argues that the Gaming
Commission, as an agency of the Tribe, does not enjoy this same immunity
But this argument conflicts with the principle ofsovereign immunity that “ an
aim or instrumentality of the State generally enjoys the same immunity as the
sovereign itself.” Lewis, 137 S. Ct. at|l290 (citation omitted). Dotson also
argues {that tribal sovereign immunity! can be circumvented by seeking an
injunction against a specific official: He| claims his suit is not against the Tribe
but rather against the “Paragon Casing employee that was violating Federal
Gaming Regulation Laws.” However, jthe question of the Tribe’s—and, by
extension, the Gaming Commission’s-[-sovereign immunity is independent
of the question of whether individual (japacity suits may be brought against
I'
|

;

i
i
i

1

Case: 20-30261
!

Document: 005156^8470

Page: 6

Date Filed: 1012812020

No. 20-30261
:

tribal officials. Because only the former is at issue here and the Tribe and
Gamipg Commission enjoy sovereign immunity, Dotson’s argument fails.3
B
;

r

| We next address Dotson’s arguments regarding the dismissal of his
claim| against Piazza and Vocarro lor failure to timely effect service of
process. Rule 4(m) requires a court tc dismiss an action without prejudice if
the defendant is not served within 90 days after the complaint is filed . Fed.
R. Cijv. P. 4(m). However, “ifthe plaintiff shows good cause for the failure,
the cojirt must extend the time for serv ice for an appropriate period. ” Id. And
“[ejven if the plaintiff lacks good cause, the court has discretion to extend
the time for service.” Thrasher, 709 Fi3d at 511.
The plaintiff bears the burden of proving good cause for failure to
effect finely service. Id. This proof inquires “at least as much would be
required to show excusable neglect, as to which simple inadvertence or
mistake of counsel or ignorance of the rules usually does not suffice.” Id.
(quoting Winters v. Teledyne Movible O ffshore, Inc., 776 F.2d 1304,1306 (5th
Cir. 1085)). Plus, the plaintiff must; also show good faith and “ some
reasonable basis for noncompliance 4 with timely service. Id. (quoting
Winter^ T76 F.2d at 1306). If the district court exercises its discretion and
dismisses an action with prejudice, “wcj must find a delay longer than j ust a
few mojnths; instead, the delay must be characterized by significant periods
of total inactivity” to justify this “extreme sanction.” Id. at 512-13 (cleaned

up). : S'

i

i
(•

i

1

Dotson also argues that the district «jourt erred in dismissing the claims against
the Gaming Commission because he effected Service on parties. However, this argument
conflates the court’s subject-matter jurisdiction with separate jurisdictional issues.
Accordingly, this argument also fails.
|

i

s
i

r

Case: 20-30261

Document: 00515618470

Page: 7

Date Filed: 10/28/2020

No. 20-30261

The district court did not abuse its discretion in concluding that
Dotson had failed to show good cause for his failure to effect timely service
and in dismissing his action with prejudice. Approximately eight months
passed between Dotson’s filing of his complaint and the reissuance of
summons to Piazza and Vocarro, which were returned unexecuted. During
those eight months, Dotson made no effort to serve Piazza or Vocarro.
Moreover, during that eight-month period, Dotson was granted an extension
of time to effect service and two received two notices of the district court’s
intent to dismiss his case for failure to prosecute under Local Rule 41.3. After
Dotson’s suit was dismissed for failure to effect service and then reopened,
the district court granted Dotson yet another extension of time to complete
service by June 15, 2019. Dotson fails to show good cause for these delays.
Both of his arguments that good cause exists—the alleged theft was a
“traumatizing experience” and “Cindy or Christy Smith sabotage[d] the
summons ” — are insufficient proof to meet his burden. Moreover, the district
court’s decision to impose the extreme sanction of dismissal with prejudice
was warranted here because there is a “clear record of delay” that was caused
by Dotson himself. See Thrasher, 709 F.3d at 514 (considering a clear record
of delay plus one of three aggravating factors as grounds for affirming
dismissals with prejudice).
Dotson argues that the district court abused its discretion in
dismissing his claims against Piazza and Vocarro because he claims that he
effectively served them on June 14,2019. That day, Dotson’s process server
requested that Christy Smith, the Clerk of Court for the Tunica-Biloxi Tribal
Court, serve summons on the Gaming Commission, Piazza, and Vocarro.
Smith determined that the summons issued to Piazza could not be served
because Piazza was no longer employed at the Paragon Casino Resort and the
summons issued to Vocarro could not be served because it lacked the
defendant’s full name. Both summonses were then returned by mail to

Case: 20-30261

Document: 00515618470

Page: 8

Date Filed: 10/28/2020

No. 20-30261

Dotson; neither Piazza nor Vocarro were served. Moreover, Dotson’s
attempt at service was defective under Rule 4(e) because Smith is not an
authorized agent for service for either Piazza or Vocarro.4 Dotson ’s argument
thus fails.
IV
For all these reasons, we AFFIRM the district court’s dismissal of
Dotson’s claims against the Gaming Commission, Piazza, and Vocarro.

4 As Clerk of Court, Smith receives documents that are requested to be served
through the Tribal Police. After reviewing the documents to determine if they are
sufficient, she forwards them to the Tribal Police for service.

e>~\TL

Case: 20-30261

Document: 00515618492

Page: 1

Date Filed: 10/28/2020

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE.
Suite 115
NEW ORLEANS. LA 70130

LYLE W. CAYCE
CLERK

October 28, 2020
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc

No. 20-30261

Shannon Dotson v. Tunica-Biloxi Gaming
Cmsn, et ai
USDC No. 1:18-CV-885

Enclosed is a copy of the court's decision. The court has entered
judgment under Fed. R. App. P. 36.
(However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)
Fed. R. App. P. 39 through 41, and 5th Cir. R. 35, 39, and 41 govern
costs, rehearings, and mandates. 5th Cir. R. 35 and 40 require you
to attach to your petition for panel rehearing or rehearing en
banc an unmarked copy of the court's opinion or order.
Please
read carefully the Internal Operating Procedures (IOP's) following
Fed. R. App. P. 40 and 5th Cir. R. 35 for a discussion of when a
rehearing may be appropriate, the legal standards applied and
sanctions which may be imposed if you make a nonmeritorious
petition for rehearing en banc.
Direct Criminal Appeals. 5th Cir. R. 41 provides that a motion for
a stay of mandate under Fed. R. App. P. 41 will not be granted
simply upon request. The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court.
Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
and/or oh appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under Fed. R. App. P. 41. The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel. Court appointed counsel is responsible
for filing petition(s) for rehearing(s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order.
If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
Additionally, you MUST confirm that
rehearing and certiorari.
this information was given to your client, within the body of your
motion to withdraw as counsel.

Case: 20-30261

Document: 00515618492

Page: 2

Date Filed: 10/28/2020

Sincerely,
LYLE W. CAYCE, Clerk

By:
Whitney M.Jett,Deputy Clerk
Enclosure(s)
Mr. Shannon Demond Dotson
Mr. Douglas Russell Holwadel

23

